No. 20-5074
IN THE

Supreme Court of the United States
ROBERT BANKS III,

Petitioner,

v.
UNITED STATES,

Respondent.

On Writ of Certiorari to the
United States Court of Appeals
for the Ninth Circuit
CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I, Antony L. Ryan,
a member of the Bar of this Court, certify that the Brief of the Center on
Race, Inequality, and the Law at New York University School of Law as
Amicus Curiae Supporting Petitioner contains 5,997 words, excluding the
parts of the brief that are exempted by Supreme Court Rule 33.1(d).
Dated: August 14, 2020.
/s Antony L. Ryan
Antony L. Ryan
CRAVATH, SWAINE & MOORE LLP
825 Eighth Avenue
New York, NY 10019
(212) 474-1000
Center on Race, Inequality, and the
Law at New York University School of
Law

